FILED, Clerk of the Supreme Court, 08 May 2020, 083751

SUPREME COURT OF NEW JERSEY
C-757 September Term 2019
083751
Jose Camilo,
Appellant-Petitioner,
v.

ORDER

New Jersey State Parole
Board,
Respondent-Respondent.

A petition for certification of the judgment in A-002445-17
having been submitted to this Court, and the Court having considered the
same;
It is ORDERED that the petition for certification is denied.

WITNESS, the Honorable Stuart Rabner, Chief Justice, at Trenton, this
5th day of May, 2020.

CLERK OF THE SUPREME COURT

NOT FOR PUBLICATION WITHOUT THE
APPROVAL OF THE APPELLATE DIVISION

SUPERIOR COURT OF NEW JERSEY
APPELLATE DIVISION
' DOCKET NO. A-2445-17T1
JOSE CAMILO,
Appellant,
v.
NEW JERSEY STATE
PAROLE BOARD,
Respondent.
Submitted October 2, 2019 - Decided October 30, 2019
Before Judges Sabatino and Sumners.
On appeal from the New Jersey State Parole Board.
■Jose Camilo, appellant prose.
Gurbir S. Grewal, Attorney General, attorney for
respondent (Melissa H. Raksa, Assistant Attorney
General, of counsel; Christopher Josephson, Deputy
Attorney General, on the brief).
PER CURIAM

Appellant Jose Camilo, who is currently incarcerated in East Jersey State
Prison, appeals the New Jersey State Parole Board’s (the Board's) December 14,
200-month
2016 final agency decision denying him parole and imposing a
Future Eligibility Term (FET). We affirm.
On February 9, 1980, Camilo shot and killed his estranged girlfriend's
mother, and shot her pregnant sister, leaving her quadriplegic and confined to a
wheelchair. The sister’s pregnancy was terminated because of the shooting. The
•

sister's five-year-old daughter witnessed the shootings.
On July 12, 1982, a jury

convicted Camilo of: (1) murder; (2) attempted

murder; (3) aggravated assault; (4) possession of a weapon for an unlawful
purpose

; (5) unlawful possession of a weapon; and (6) terroristic threats.1 He

was sentenced fo life in prison

for murder, with a twenty-five-year period of

parole ineligibility, and a consecutive term of twenty years for aggravated
assault, with a ten-year period of parole ineligibility
conviction was

The attempted murder

merged with the aggravated assault conviction for sentencing,

Ten years later, as

a result of Camilo's petition for post-conviction relief, the

“Followingthe crime, Camilo fled the United States to the Dominican Republic
hi! country of citizenship. On or about Meuch 1982 he was arrested m Canada ,
on the outstanding arrest warrant and extradited to the U.b.
A-2445-17T1

2

'

aggravated assault sentence was amended to a ten-year sentence, with a fiveyear period of parole ineligibility, concurrent to the life sentence.
After Camilo became eligible for parole on June 11, 2012, a parole hearing
officer referred consideration of Camilo's parole to a two-member panel of the
Board. In an initial hearing held a month later, the panel denied parole and set
a FET of thirty-six months. Camilo's administrative appeal of that particular
ruling was'successful and the panel vacated its decision because it had reflected
the incorrect standard of review.2 The Board explained that since he was
"incarcerated for crimes committed prior to August 19, 1997; the standard of
review in [his] case is whether there is a preponderance of evidence to indicate
that there is a substantial likelihood that [he] will commit a new crime if released
at this time." The matter was therefore remanded for reconsideration.
The second initial hearing also resulted in a successful appeal by Camilo.
After a parole hearing officer referred the parole request to a Board panel in
August 2013, it was not until October 2013, when a hearing before a twomember Board panel was convened due to an issue with the documents
considered in the first appeal documents. The second initial hearing commenced

2 Camilo was advised in a letter dated February 7, 2013, by the Board's Director,
Legal Support Unit, that the two-member panel's decision was being vacated.
However, the panel's decision was rendered on March 6, 2013.
3-

A-2445-17T1

in January 2014, when a two-member panel denied parole and referred the matter
to a three-person panel to determine the FET.

The three-person panel

established a 240-month FET in April 2014.

In response to Gamilo's

administrative appeal, in January 2015, the three-member panel vacated its
decision because it determined that the transcript did not reflect a verbatim
translation of Gamilo's April 2014 hearing. Consequently, decisions from the
proceedings in August 2013, January 2014, and April 2014, were all vacated in
January 2015, requiring the consideration of Camilo's parole to start anew.
Camilo's third initial hearing was held in August 2015, which again
resulted in the parole hearing officer referring the matter to a two-member Board
panel for a hearing.

Later that month, the panel, based upon "interview,

documentation in case file, and confidential material/professional report,"
denied parole, considering the following factors:
• Serious nature of offense(s). Specifically:
[five-year] old female witnessed shooting of
mother [and] [grandmother resulting in death of
•. , [gjrandmother [and]V>.permaneiit disabling
injuries [sic] to mother;
•

Committed
offenses;

to

incarceration

for

multiple

• Institutional infraction(s):
[a.] numerous;
[b.] serious in nature;
4

A-2445-17T1

[c.] loss of commutation time;
[d.]'confinement in detention;
[e.] Administrative Segregation.
infraction: 9-1-01 (3 Asterisk);

Last

• Insufficient problem(s) resolution. Specifically:
[a.] lack of insight into criminal behavior;
[b.] minimize conduct;
[c.] substance abuse problem has not been
sufficiently addressed;
[d.] other: [Camilo] continues to show, a low
regard for the rules/laws oi society anci nis main
concern is to get out not to understand how his
actions and triggers] cause[d] this tragedy and
show[s] a clear possibility of. such an act
occurring again on community supervision. As
demonstrated by: interview, documentation in
case file, and confidential material [or]
professional report;
• Lack of adequate parole plan to assist in
successful reintegration into the community.
The panel acknowledged the following mitigating factors.
• No prior offense record;
«. Participation in program(s) specific to. behavior;
• Participation in institutional program(s);
« Attempt made to enroll and participate in
program(s) but was not admitted,
• Risk assessment evaluation 18.

5

A-2445-17TI

The panel referred the matter to a three-member Board panel to determine
the FET. About a month later, and prior to the FET determination, the twomember panel amended its decision to reflect two additional mitigating factors:
reports
• Institutional
institutional adjustment;

reflect

favorable

• Commutation time restored.
In November 2015, the three-member panel established a 200-month FET.
The panel based its decision on the same factors, including the mitigating factors
' that the two-person panel applied to deny parole, and a letter of mitigation by
Camillo detailing a parole plan that was substantiated by letters from his family
in the Dominican Republic where he would be deported to upon his release.
and two .
Camilo administratively appealed the decision denying parole
hundred-month FET to the full Board. In a five-page final agency decision, the
Board affirmed the panels' decisions for essentially the same reasons.
Before us, Camilo argues the following point:
POINT I
THE DECISION OF THE PAROLE BOARD TO
DENY PAROLE MUST BE VACATED AND
PETITIONER SHOULD BE SUBJECT TO PRE­
RELEASE CONDITION OF SATISFACTORY
.
COMPETITION OF TWELVE MONTH HALFWAY
HOUSE PLACEMENT; DENIAL OF PAROLE AND
IMPOSITION OF TWO HUNDRED (200) MONTH
6 .

A-2445-17T1

FUTURE ELIGIBILITY TERM BY THREE PANEL
BOARD failed to show how appellants
CONDUCT 39-YEARS AGO IN 1980 COULD
REVEAL APPELLANTS CURRENT PAROLE
SUITABILITY
A. The Decision of the Parole Board Conflicts
With This Court[']s Decision In Trantino v. New
.Tersev State Parole Board[31
We have considered the contentions raised by Camilo and we affirm
substantially for the reasons expressed by the Board in its thorough decision.
We add the following remarks.
Under our standard of review, we consider: (1) whether the Board's action
is consistent with the applicable law; (2) whether there is substantial credible
. evidence in the record as a whole to support its findings; and (3) whether m
applying the law to the facts, the Board erroneously reached a conclusion that
could not have been reasonably made based on the relevant facts . Trantino, 154
N.J. at 24

The Board's decision to grant or deny parole turns on whethei "there

" another crime if released.
is a substantial likelihood the inmate will commit
Williams v. N.J.

State Parole Bd., 336 N.J. Super. 1, 7-8 (App. Div. 2000). The

Board must consider the enumerated factors inN.J.A.C. 10A:71-3.11 (b)(l)-(23)
in making its decision

The Board, however, is not required to consider each

3 [154 N.J. 19 (1998).]
A-2445-17T1

7

.<2

and every factor; rather, it should consider those applicable to each case.
McGowan v. N.J. State Parole Bd., 347 N.J. Super. 544, 561 (App. Div. 2002).
An inmate serving a minimum term in excess of fourteen years is
ordinarily assigned a twenty-seven month FET after a denial of parole. See
N.J.A.G. 10A:71-3.21(a)(1). However, N.J.A.C. 10:71-3.21(d) allows a threemember panel to establish a FET outside of the administrative guidelines if the
presumptive twenty-seven month FET is "clearly inappropriate due to the
inmate's lack of satisfactory progress in reducing the likelihood of future
criminal behavior."
Here, the Board's action is consistent with the applicable law, there is.
substantial credible evidence in the record as a whole to support its findings, and
the Board reached conclusions that were based on the relevant facts. The Board
made extensive findings, which we need not repeat here, demonstrating the basis
for its decision to deny Camilo parole. In its final decision, the Board provided
multiple sound reasons for imposing the 200-month FET, which, although
lengthy, is neither arbitrary nor capricious. In fact, according to the Board, the
FET backdates to the first initial hearing and will be reduced by substantial
commutation credits, so that Camilo's parole eligibility date is currently January
17, 2024, and with anticipated work credits and minimum custody credits his

8

A-2445-17T1

projected parole eligibility date is actually in February 2022. Hence, the 200month FET is not nearly as severe as it may first appear. On this record, we
have no reason to second-guess the Board's findings or conclusions and defer to
its expertise in these matters.
fo the extent we have not specifically addressed any of defendant s
arguments, it is because we find they have insufficient merit to warrant
discussion in a written opinion. -IL 2:1 l-3(e)(l)(D) and (E).
Affirmed.

I hereby certify that the foregoing
is a true copy of the original on
file in my office.
CLERK OF THE AP^EL^ATE DMStQN

9

A-2445-17T1

■

